SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
CPHILLIPS@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

+1 202 736 8270

April 9, 2020
VIA REGISTERED MAIL AND ELECTRONIC FILING
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Joslyn Manufacturing Company, LLC v. Valbruna Slater Steel Corporation (No.
19-917)

Dear Mr. Harris:
Pursuant to this Court’s Order dated March 19, 2020, petitioners in the above-captioned
case respectfully request that the Court delay distribution of the petition for a writ of certiorari
for 10 days.
Respondents filed their brief in opposition on April 6, 2020. Distribution of the petition
would therefore normally occur no earlier than April 20, 2020. If this Court were to grant the
requested 10-day delay, distribution of the petition would occur no earlier than April 30, 2020.
Petitioners require the additional time to file their reply due to the logistical difficulties
and dislocations caused by the COVID-19 pandemic, including the need to coordinate among
three different law firms each operating remotely. Counsel for respondents authorized me to say
that they do not object to the delay in distribution.

Respectfully submitted,
/s/ Carter G. Phillips
Carter G. Phillips
Counsel of Record
CC: Counsel for respondents via e-mail

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

